<html>
<title> - A LEGISLATIVE HEARING ON THE WATER RESOURCES DEVELOPMENT ACT OF 2012</title>
<body><pre>[Senate Hearing 112-978]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-978

  A LEGISLATIVE HEARING ON THE WATER RESOURCES DEVELOPMENT ACT OF 2012

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 15, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


         Available via the World Wide Web: http://www.fdsys.gov
               
               
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-114PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6007100f200315131408050c104e030f0d4e">[email&#160;protected]</a>               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           NOVEMBER 15, 2012
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...   143
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee, 
  prepared statement.............................................   145
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........   146
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....   147
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................   149
Johanns, Hon. Mike, U.S. Senator from the State of Nebraska......   151
Boozman, Hon. John, U.S. Senator from the State of Arkansas......   152
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......   152
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................   259
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..   261

                               WITNESSES

Curtis, Stephen A., P.E., M.ASCE, Board Member and At-Large 
  Director, American Society of Civil Engineers..................   154
    Prepared statement...........................................   156
    Responses to additional questions from:
        Senator Boxer............................................   165
        Senator Inhofe...........................................   167
Sullivan, Terry, State Director, Rhode Island Chapter, The Nature 
  Conservancy....................................................   169
    Prepared statement...........................................   172
    Responses to additional questions from:
        Senator Boxer 



        Senator Inhofe 



Larson, Amy W., Esq., President and CEO, National Waterways 
  Conference, Inc................................................   205
    Prepared statement...........................................   207
    Responses to additional questions from:
        Senator Boxer............................................   219
        Senator Inhofe...........................................   224
Williams, Warren Dusty, President, NAFSMA, and General Manager 
  and Chief Engineer, Riverside County Flood Control and Water 
  Conservation District..........................................   227
    Prepared statement...........................................   230
    Responses to additional questions from:
        Senator Boxer............................................   239
        Senator Inhofe...........................................   241

                          ADDITIONAL MATERIAL

Statement of the American Public Works Association, November 15, 
  2012...........................................................   306

 
  A LEGISLATIVE HEARING ON THE WATER RESOURCES DEVELOPMENT ACT OF 2012

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2012

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full Committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the full Committee), presiding.
    Present: Senators Boxer, Inhofe, Carper, Lautenberg, 
Whitehouse, Merkley, Vitter, Barrasso, Johanns, and Boozman.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning, everybody. Welcome to this 
hearing.
    Today we are going to examine a draft bill to reauthorize 
WRDA, the Water Resources Development Act. This hearing comes 
on the heels of Sandy, which killed more than 120 people, 
destroyed entire neighborhoods on the east coast, and cost 
billions of dollars in damage to property and businesses. Our 
thoughts and prayers go out to all the communities affected by 
this terrible storm. And I know, because I have talked to 
Senator Vitter, when he looks at this, he is still dealing with 
what happened down in his great State.
    The devastation caused by Sandy puts an even brighter 
spotlight on the need to ensure that communities have critical 
flood protection, which is one of the primary goals of the WRDA 
bill. The bill before us I have drafted, based on the input of 
members of this Committee and many weeks of discussion with the 
Ranking Member, Senator Inhofe, the Chair and Ranking Member of 
the Transportation and Infrastructure Subcommittee. I believe 
they have been productive discussions. I got a very important 
letter that has been made public, and I ask unanimous consent 
to put it into the record at this time. Without objection, from 
all of the Republicans, I find this letter to be very 
important, very constructive. And I thank my colleagues for 
doing it.
    [The referenced letter was not received at time of print.]
    Senator Boxer. Clearly, the bill before us is my draft. And 
it is going to be changed, and we are going to work on it until 
we all agree. And I believe we will reach agreement, just as we 
were able to do in the highway bill.
    So I look forward personally to working with every member 
of this Committee to refine this draft as we move forward. I 
have already spoken to a lot of you individually, and you have 
my commitment, and my staff is ready, willing, and able. We 
start discussions from this moment forward.
    As we discussed in September, WRDA authorizes the projects 
and programs of the Army Corps, provides many benefits to 
America's families and businesses, including maintaining 
navigation routes for commerce and reducing the risk of 
flooding. For example, U.S. ports and waterways, many of which 
are maintained by the Corps, moved $2.3 billion tons of goods 
in fiscal year 2011. We are talking about an economic issue 
here. And Corps flood risk management projects are estimated to 
have prevented $28 billion in damages in 2010. So even though 
we are looking at horrific damages from Sandy, we have to 
realize, in 2011, the Corps flood risk management projects 
prevented $28 billion in damages, in 2010.
    This bill recognizes the value of our nation's water 
resources infrastructure by authorizing projects that have been 
extensive reviewed, evaluated, and recommended to Congress for 
authorization. These projects represent all of the Corps of 
Engineers' primary mission areas, including flood risk and 
storm damage reduction, navigation, ecosystem restoration. They 
will protect life and property for thousands of people, restore 
significant ecosystems, and promote commerce.
    Now, here is the thing. If we don't act, these projects 
can't go forward, even though there is an engineer's report for 
them, and all the work has been done. We don't act. And the 
House doesn't act, the President doesn't sign the bill, these 
projects are not going to move forward.
    I will give you an example of just one project in my State 
where we are facing very critical challenges. The WRDA bill 
would authorize improvements to these projects that already 
have these engineers' reports. And they are all over the 
country. This particular one is around the Natomas Basin in 
Sacramento, to reduce flood risk for tens of thousands of 
people.
    According to the Corps, these levees protect $7 billion in 
property as well as critical Federal, State, and local 
infrastructure. I would like to enter into the record a letter 
from the Sacramento Area Flood Control Agency and 
Representative Matsui supporting this WRDA bill. Without 
objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Like Natomas, there are many more life 
saving flood control projects around the country that are ready 
to be built following passage of WRDA, projects in Kansas, 
Minnesota, North Dakota, Iowa, Kentucky, to name a few. Vital 
navigation projects and significant ecosystem restoration 
efforts are also ready to go once Congress acts. That is why I 
am so happy we all agree we must act.
    In addition to authorizing vital projects to protect life 
and safety and maintain economically important navigation 
routes, this bill makes essential policy reforms--which I know 
Senator Vitter is particularly interested in--including 
increasing flexibility for non-Federal sponsors of Corps 
projects, encouraging the Corps to fully implement ongoing 
efforts to accelerate project delivery, urging the expenditure 
of funds collected in the Harbor Maintenance Trust Fund, 
reforming the process for delivery of inland waterway 
projects--again, very important to members of this Committee--
and establishing a national levee safety program.
    In light of the devastation caused by Sandy and other 
extreme floods, I have drafted a new title, I am very excited 
about getting my colleagues' advice on this title, to help us 
better prepare for and reduce the risk from these types of 
disasters. I have made this new provision available to all 
members of the Committee, and I ask unanimous consent to place 
this piece into the record at this time. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. This provision directs the Corps to work 
with the National Academy of Sciences to evaluate the options 
to reducing risks associated with future disasters, identify 
the infrastructure investments we need and explore potential 
funding sources for these investments. We also ask for GAO 
review of Corps policies and practices related to flood control 
and to drought, to ensure that the Corps is taking appropriate 
measures to prepare for and respond to these events.
    Very importantly, the provision also provides new authority 
to the Corps to conduct post-disaster watershed assessments and 
implementation of critical flood control without being stalled 
by bureaucratic delays and adherence to several different laws. 
This would allow them, in the wake of a disaster such as 
Katrina or Sandy, to move forward when there is clear evidence 
of a problem that we know how to fix.
    So the last point that I want to make that I am excited 
about is we have set up something called WIFIA, which is based 
on TIFIA, which is a way to get the Federal Government to 
assist the localities that have funding for these important 
infrastructure projects, to get that funding up front, no risk 
to the Federal Government. And it really has about a 30 to 1 
leverage. So we come in small on this, just as a way to see if 
it works. But we are excited about this concept.
    So I hope my colleagues feel that this first draft is a 
good start. It is only a first draft; I want to underscore 
that. The final bill is going to be very different. It is going 
to reflect every member's views, I assure you that.
    Again, I am very grateful to Senators Inhofe and Vitter for 
taking the lead in getting this letter to me. Because this 
letter says to me, we are ready to work; we are ready to 
cooperate. That is what the people want. We showed we could do 
it in the highway bill. Believe me, we all were together on 
that. And I think we are going to do it on WRDA. I am excited 
about it.
    And with that, I turn to my Ranking Member.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    First, for a little clarification, a lot of people are not 
aware of the fact that Republicans have different regulations 
and rules than Democrats do. Because of that, we do have a 6-
year limitation on being a Ranking Member or a Chairman, 
depending on whether a majority or minority. And of course, 
that is why you are seeking a change. But I want to make sure 
everyone understands, I plan to continue on this Committee and 
be very active. I have already talked to Senator Vitter, and we 
have seen some areas where I could probably take the leadership 
and work very well with him.
    So anyway, as everyone knows, the Chairman and I have not 
seen eye to eye on a lot of issues. But we do on 
infrastructure. And I think back, we came together with our 
colleagues to pass the highway bill. Everybody said we couldn't 
do that; remember that?
    Senator Boxer. That is right.
    Senator Inhofe. But we did. We just stayed with it. Now 
this Committee is turning its attention to the nation's water 
resources infrastructure. Like other types of infrastructure, 
water resources infrastructure provides a good return on our 
investment in the form of economic benefits, job creation, and 
helps provide protection from flooding and other natural 
disasters.
    The Water Resources Development Act, the WRDA bill, 
authorizes the studies and projects and policies that change 
the nation's pressing needs. It is supposed to be done every 2 
years. That was what we have done in the past; we have tried to 
do. Yet the last one was 5 years ago. It was in 2007. And at 
that time, I was in the minority and also back in the minority 
back in 2000, I just remembered.
    But it didn't make any difference. Because when it gets to 
infrastructure, we all want the same thing. I often say that I 
have enjoyed the ranking of the most conservative member from 
time to time, and always hasten to say that I may be, but I am 
a big spender in two areas, national defense and 
infrastructure. Because if we don't do it, nobody else is going 
to do it.
    In my home State of Oklahoma, we have our share of water 
resources challenges that run the gamut from flood control to 
inland navigation. That is kind of a best kept secret; people 
talk about their ports, well, we have the most inland port in 
my State of Oklahoma. It comes all the way to Tulsa, or to 
Catoosa.
    So we are very much interested in that. And we know that 
there are others, such as Senator Alexander and certainly 
Senator Graham, who have interest in this, as well as Senator 
Vitter in some of our ports. We also have the inland water 
ports, and that is very significant.
    So I am pleased that the Committee is taking up the 
critical step toward the development of a WRDA bill by having 
today's legislative hearing. It is a good idea to have this 
during this lame duck session because it lets people know, it 
reminds them that we are going to move forward with this. We 
are not just talking about it; we are going to do it.
    So Chairman Boxer is to be commended for producing a draft. 
As many of us know, often putting pen to paper and kick 
starting this process can be a challenge. However, as with any 
legislative proposal, there are things that I like, things that 
need to be improved, and there are some things I am not so 
serious about.
    Unfortunately, this election didn't go as I would have 
liked it, and I think the Chairman disagrees with me.
    [Laughter.]
    Senator Inhofe. Nonetheless, as far as this effort is 
concerned, it is not going to change that.
    Senator Boxer. No.
    Senator Inhofe. We are going to be working together, and 
certainly Senator Vitter has been my friend for a long time, he 
has a good grasp on all these issues. I can't think of any 
areas where we really have a strong disagreement. So we will 
continue forward as if the changes weren't made.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    I would like to start by commending you, Madam Chairman, 
for your leadership and dedication to addressing the nation's 
infrastructure challenges.
    Everyone knows that the Chairman and I don't always see eye 
to eye, but infrastructure is one of the issues that we do 
agree on. As a result, the Chairman and I have formed a strong 
partnership to develop comprehensive, bipartisan infrastructure 
legislation. Most recently, we came together with our 
colleagues to pass a highway bill despite numerous challenges. 
Not everyone thought we could get it done, but we proved them 
wrong.
    Now, this Committee is turning its attention to the 
nation's water resources infrastructure. Like other types of 
infrastructure, water resources infrastructure provides a good 
return on our investment in the form of economic benefits, job 
creation, and helping provide protection from flooding and 
other natural disasters.
    A Water Resources Development Act (WRDA) authorizes 
studies, projects, and policy changes to address the nation's 
pressing water resources challenges. Ideally, Congress should 
pass a WRDA bill every 2 years. Unfortunately, WRDA was last 
enacted in November 2007--5 years ago. Since then, not only 
have our nation's water resources policy issues grown 
exponentially, but there are numerous studies and projects 
across the country awaiting congressional authorization.
    In my home State of Oklahoma, we have our own share of 
water resources challenges. These run the gamut from flood 
control to inland navigation to water supply. Oklahoma's--and 
the nation's--water resources issues, studies, and projects 
cannot afford to be kept waiting due to congressional inaction.
    So, I am pleased that the Committee is taking a critical 
step toward the development of the next WRDA bill by having 
today's legislative hearing on the Chairman's draft. I would 
like to thank our witnesses for testifying before us this 
morning.
    I believe that this draft is a good start. Chairman Boxer 
is to be commended for producing a draft; as many of us know, 
often putting pen to paper and kick-starting this process can 
be challenging. However, as with any legislative proposal, 
there are things that I like, there are things that need to be 
improved, and there are things that I have serious concerns 
with. Our witnesses are here today to provide their feedback on 
the draft in order to inform our thinking on how to best 
address the nation's water resources challenges. I hope our 
witnesses will be candid in their commentary and point out 
anything they feel was left out of the draft. With the valuable 
information gained from this hearing, I expect that the 
Committee's work on this bill will continue into next year.
    Unfortunately, this year's election did not go as I would 
have liked. I am sure the Chairman disagrees with me on this. 
However, infrastructure advocates can rest assured that they 
have a strong ally in my friend, Senator Vitter, who will 
become Ranking Member of this Committee next year. I am 
confident that he and the Chairman will continue the tradition 
of bipartisanship as they work to address the nation's 
infrastructure challenges. And I will continue to play a 
pivotal role as a senior member of this Committee.
    Thank you, and I look forward to hearing the witnesses' 
testimony.

    Senator Boxer. Well, my friend, thank you.
    Senator Inhofe. Oh, yes, one last thing. Senator Alexander 
was planning to be here and has a rather lengthy statement. He 
asked that I include it in the record.
    Senator Boxer. Without objection.
    [The prepared statement of Senator Alexander follows:]

                  Statement of Hon. Lamar Alexander, 
                U.S. Senator from the State of Tennessee

    I want to thank Senator Boxer for working to draft a bill 
to reauthorize the Water Resources and Development Act (WRDA).
    Passing a WRDA bill is something this country desperately 
needs in order to improve the way we operate our waterways, 
manage flooding, and protect our wetlands.
    Although there are good things in this bill, unfortunately 
this bill does very little to address the real problems with 
either the Inland Waterways Trust Fund or the Harbor 
Maintenance Trust Fund.
    At a time when we are struggling to help our economy grow, 
it's important to manage our infrastructure in a way that makes 
it easier and cheaper for Americans to run their businesses.
    The President has stated that it's his goal to double U.S. 
exports by 2014. I think this is a smart goal, and I hope that 
it is shared by all of us in the Congress. However, to achieve 
the President's goal will require that we improve both of the 
waterways' trust funds so that we can support fiscally 
responsible investment in our nation's ports and waterways.
    Any WRDA bill that Congress considers must address the 
issue that Olmstead Lock is consuming the vast majority of the 
nation's lock funding. The fact is while focusing on one lock 
project we are failing to adequately maintain and replace our 
other locks and we run the risk of shutting down huge sections 
of our country to inland navigation.
    Without inland navigation, the number of heavy trucks on 
our nation's roads will increase dramatically. Those increases 
will further clog our country's interstates, result in more 
wear and tear on our highways, and increase road maintenance 
costs.
    What this Committee should be doing is investing in our 
waterways, reducing transit time by barge, dramatically 
increasing fuel economy for heavy freight, and reducing the 
number of heavy trucks on our nation's interstates by investing 
in our waterways.
    This bill also fails to allow for needed investment in 
American ports. In 2014 the newly expanded Panama Canal is set 
to open, paving the way for larger ships on the East Coast. 
These ships will be deeper, carry more cargo, and become a 
major part of international trade.
    These larger ships are going to use the expanded Panama 
Canal regardless of whether or not our U.S. ports can 
accommodate them. If the U.S. ports aren't big enough, the 
post-Panama Canal expansion ships will simply offload in the 
Caribbean, and other countries will benefit, and U.S. ports 
will lose trade and jobs.
    We know about this problem; we know that this bill is the 
place to address the problem--we should not avoid addressing 
the issue and put it off to another day.
    I am concerned that this bill doesn't create a path to 
expanding our ports, and it doesn't address the problems with 
the Harbor Maintenance Trust Fund.
    My hope is that before there is a vote on Senator Boxer's 
proposal there will be an opportunity to modify her bill to 
address some of the shortcomings with how our waterways 
operate.

    Senator Boxer. We will turn to Senator Merkley, who I note 
has his own bill on WIFIA, and we are very excited about that, 
because we have included a very similar version into the draft.
    Go ahead, Senator.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you very much, Madam Chair, and 
Senator Inhofe, thank you for your service as Ranking Member. 
And congratulations, Senator Vitter.
    This particular bill is a great one to kind of start the 
conversations, because this emphasis on infrastructure is felt 
all around the country. We have so many counties and cities 
wrestling with either replacing aging infrastructure or 
upgrading infrastructure to meet modern standards, or preparing 
infrastructure to enable the economic expansion of the 
community. So in all three cases, the bill is often very, very 
high.
    So I want to highlight two pieces of this legislation that 
I particularly appreciate. One is indeed the pilot project for 
WIFIA. The full bill is Senate Bill 3626, and I would love to 
work with Members to take a look at that.
    As Chair Boxer mentioned, it is modeled on the successful 
TIFIA program. And whether it be water supply or water 
treatment, these are just critical infrastructure projects.
    I am going to shorten this so we can get on with other 
opening statements and the hearing. But I also wanted to say 
that there are other aspects I hope we wrestle with as we 
consider the WIFIA pilot. Whether we should just keep a 
financial cap but not a number cap, because that may prove an 
artificial limit. There may be well more than 10 projects 
around the country that would be useful pilot projects and 
still fit within the financial structure.
    Also recognition of cost efficient green infrastructure in 
terms of wastewater management, stormwater management, which is 
proving very effective in expanded use around the country. And 
taking a look at including Buy America provisions that keep our 
taxpayer dollars here, right at home, so they circulate in our 
own economy rather than going overseas to create wealth and 
jobs overseas, rather than wealth and jobs here at home.
    So I also wanted to spotlight the effort that Senator 
Baucus first introduced to allow Army Corps to perform levee 
certifications. The short version is it is 5 to 10 times more 
expensive for my small communities in Oregon to go through the 
private contractor route than to utilize the existing expertise 
of nearby Army Corps. That is a huge efficiency for our small 
towns and communities. I certainly appreciate the inclusion of 
a framework for that, and it is something I will continue to 
advocate for, because it is so critical that these levees get 
certified.
    The uncertainty for the businesses, the uncertainty for the 
homeowners who might be selling their homes, is huge when you 
have these uncertified levees and the inability to afford to go 
the current route.
    Thank you very much. I look forward to working with 
everyone on this bill.
    Senator Boxer. Thank you for your help, as everybody has 
worked so hard, so far.
    Senator Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Chairman Boxer, for all your 
leadership, for calling this hearing, and for your draft. And 
special thanks to my Ranking Member for his very, very strong 
but practical and productive leadership as Ranking Member of 
this Committee. I know all of us, not only on the Republican 
side, but on the Committee, really, really appreciate that 
service, and are going to count on that continuing service and 
leadership on the Committee.
    A lasting legacy of both of you on this Committee is to 
come together, to bridge partisan divides on important national 
priorities like WRDA bills, like transportation bills. That is 
exactly what we want to continue with this new WRDA. That is 
what helped pass a good, solid WRDA 2007. That is what passed a 
highway bill recently, against all odds, against all the 
predictions of the pundits. And that is what is going to pass 
this new WRDA bill. So we all want to look forward to 
continuing that tradition.
    Senator Boxer. Absolutely.
    Senator Vitter. That is part of what all of us on the 
Republican side wanted to communicate in this letter to you, 
Chairman, that you alluded to. We are very committed to 
continuing that tradition, to coming together, to getting full 
input and to producing a good, solid, responsible, bipartisan 
WRDA bill. In doing that, as you know, we also highlighted four 
overarching priorities of ours that you have very graciously 
focused on and acknowledged. I just want to list those, because 
they are very important to all of us.
    First, reforms that expedite and improve the Corps' project 
delivery process. That process is just downright broken in a 
lot of instances, where project delivery takes two decades or 
more in many instances.
    Second--and Chairman Boxer, you talked about the solutions 
that address the policy and funding challenges facing the 
Inland Waterway Trust Fund and the Harbor Maintenance Trust 
Fund. We need to use those supposedly dedicated revenues for 
the purposes for which they are intended: dredging waterways, 
keeping commerce flowing. As everybody knows, there are 
regularly--much of it is regularly stolen from those so-called 
trust funds and used for unrelated purposes. And we need to 
stop that, because if we don't, that is a tax on commerce. That 
leads directly to short loading ships; that is basically just a 
tax on commerce.
    Third, oversight of the Corps' implementation, guidance, 
and internal policies. We need to make sure that the Corps is 
acting appropriately there. And fourth, prioritization of water 
resources projects. Particularly in this environment of fiscal 
constraint and no earmarks, we need to give the Corps the 
appropriate criteria to prioritize water projects. I think that 
is going to be a big part of the new WRDA bill. So we look 
forward to following up on all of these priorities.
    Also, Madam Chair, you mentioned the devastation of 
Hurricane Sandy. All of our hearts go out to all of those 
affected. I know a lot of folks will be visiting those areas 
today. And we certainly want to include those folks in this 
process, because Corps project delivery now impacts them more 
than ever before.
    I am happy to be gaining allies in terms of helping 
streamline the Corps process. I never wanted it to happen this 
way, but I am happy to be gaining those allies. We lived 
through that in Katrina, even more recently, on an obviously 
much, much smaller scale with Isaac. So we will move forward 
together to improve and streamline that process.
    Thank you.
    Senator Boxer. Thank you, Senator.
    I just want to say, we are going to have one more hearing 
in this so-called lame duck on Sandy, just to get input from 
those on the ground as to what happened there, which will help 
us. I am going to save my remarks about Senator Inhofe and my 
welcoming remarks to Senator Vitter for that particular 
occasion. Because I don't want to do that now. All I can say is 
that I have had a partner here who has just been amazing when 
it comes to working together on infrastructure. The rest of it 
is another story.
    [Laughter.]
    Senator Boxer. But we both agree to disagree with respect 
and admiration.
    Senator Inhofe. But it shouldn't go unnoticed, Madam 
Chairman, that my replacement has his green tie on.
    Senator Boxer. Oh, well, that is a good sign, David. Thank 
you. And I have my green sweater on. We did not call each other 
on a wardrobe selection today.
    But anyway, I will save my remarks for that. Because it is 
a very, in many ways we have worked together so long as 
partners here. And it has been such an interesting experience 
for both of us, and a learning experience. I think most of all, 
it has benefited a lot of folks, this collaboration, in this 
Committee and of course as we hope, in the country from our 
work that we have all been able to do.
    Well, we have a colleague who has gone through, as David is 
going through, just a horrific time right now. I am so proud 
that Frank is on this Committee, along with Kirsten Gillibrand, 
they have gone through this, just as David Vitter went through 
his experience. So we can really hear from them what is 
happening.
    Senator.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman.
    New Jersey was hit with a devastation that now, a debate 
exists, it is not important, but it does reflect something, and 
that is whether this was the worst storm in a decade or in the 
history of our State. That is how fierce it was. And this is 
the second in a series that we have had in just a couple of 
years. We had Hurricane Irene in 2011, and the President made 
his first visit there. He came again recently with Sandy. What 
we see is the devastation, not just of lots of homes, but the 
total infrastructure of the State. We are hard at work trying 
to fix what we can to make sure that life is reasonably livable 
for lots of people who were displaced.
    As a matter of fact, at one point--now, my State I think is 
well known as the most densely populated State in the country. 
We had 2 and a half million people without power. And there is 
nothing worse than not having the power to light the way, to 
keep food reasonably fresh, to be able to get around. We have a 
very large senior population. And life became substantially 
more difficult.
    And I thank you, Madam Chairman, for moving this 
legislation up to the front. The Water Resources Development 
Act is about strengthening our water infrastructure. Nowhere 
have we been more reminded of the need to improve it than in my 
State of New Jersey. Little more than 2 weeks ago Superstorm 
Sandy slammed into New Jersey with such massive force; could 
have never been anticipated. We saw railroad stations with 6 
feet of water in the station. It crippled life as we know it 
substantially.
    The storm claimed the lives of at least 119 people 
throughout the country, including 33 people from the State of 
New Jersey. Throughout my State, we have seen catastrophic 
damage caused by Superstorm Sandy, which collided with 
infrastructure unprepared for this force. For example, damage 
from Sandy caused the largest port on the east coast, serving 
more than one-third of the country, to be shut down for more 
than a week. And it is not just the economy. The economy 
includes work; the economy includes productivity. All of these 
things were totally impaired.
    The storm sounded the alarm that the Federal Government 
must invest in infrastructure not to only recover from this 
storm, but to build the infrastructure in such a way, stronger, 
so that we are prepared for the next one, which seems 
inevitably will be on its way. Up and down the New Jersey 
shore, storm surges have destroyed neighborhoods, ruined 
businesses, displaced families. The boardwalks that many of us 
grew up enjoying have been swept away along with the homes and 
the memories of New Jersey. We look at a placard here to show 
what happens in places along the way, so fierce it just tore 
off one part of this house. Of course, the building is no 
longer suitable for use. We have another one here.
    However, the silver lining is that early assessments show 
that areas of the coast that had finished Army Corps' beach 
projects were not damaged as badly as the areas that did not 
have Army Corps projects in place. This shows that wider 
beaches and dunes reduce storm damage. We need to build more of 
these projects to reduce future losses. But some of the Army 
Corps projects themselves were damaged severely during the 
storm. Currently, the Corps only repairs these damaged projects 
to their previous condition. Well, we learned that the previous 
condition is not sufficient. And I believe that we need to give 
the Corps the authority to build those projects back better 
than they were before.
    Now, during Sandy, we also saw outdated water 
infrastructure lead to two water treatment facilities breaking 
down, millions of gallons of sewage leaking into Newark Bay as 
a result. And Newark Bay also borders our largest city in New 
Jersey. Shouldn't happen. There is no excuse not to have 
modernized water infrastructure.
    And as we move forward with WRDA, I want to work with you, 
Madam Chairman, and our colleagues. I think we learned a lesson 
in the last few weeks that goes beyond just looking at water 
infrastructure in the normal operation of politics. We are all 
in this together. And what we had in New Jersey by way of flood 
damage is something compared to volcano damage in other States, 
to droughts in other States. All of us--there isn't a State 
here that is immune from some kind of a natural disaster. And 
we have to face up to it. It is everybody's responsibility. We 
are all in this together. And we have to wake up to what is 
required, funding, in terms of movement on legislation, so that 
we can get along.
    Superstorm Sandy was unprecedented. But scientists tell us 
that storms like this will become more and more frequent. A new 
WRDA bill must equip us with the tools to take on the enormous 
challenges ahead as we undertake this task.
    I look forward to working together to pass a strong WRDA 
bill, so that New Jersey and other States have what they need 
to recover and our country is ready when the next storm 
strikes. And once again, I mention the fact that we work 
together. We were able to get over the chasm that keeps us 
fighting for the wrong kinds of things. And boy, I will tell 
you, I welcome it. The gesture that we saw, for instance, in 
the State of New Jersey, where a very strong Republican 
Governor, Chris Christie, and the President of the United 
States got together and showed that we are not each independent 
of the other, but that we must be together. It was a reassuring 
factor throughout, and a spiritual uplift for our people.
    Thank you very much, Madam Chair.
    Senator Boxer. Thank you so much.
    I know people felt that way when they saw us together, too; 
it lifted their spirits.
    So now we are going to turn to Senator Johanns.

            OPENING STATEMENT OF HON. MIKE JOHANNS, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Johanns. Madam Chair, thank you. So much of what I 
wanted to say has been covered by Senator Inhofe and Senator 
Vitter very, very well. So I won't repeat that.
    I think the Senator is absolutely right. WRDA is important 
to every single State in the United States. Not only to the 
members of this Committee, but every single State. You think 
about Nebraska, of course, we are in the center of the country. 
So the hurricane, the storm that just occurred of course isn't 
going to impact a State like Nebraska.
    But we have massive flooding at times, and at other times, 
unbelievable drought. Two years ago, the entire Missouri River 
Valley was filled in historic flooding. It wiped out farms, 
wiped out homes, massive amount of damage. Last year, we went 
through unbelievable drought, heat and dry weather. So WRDA is 
just important to all of us.
    There is one thing that I wanted to highlight, and I want 
to thank you, Madam Chair, because I do know that this is on 
your radar screen, and in your draft bill you have language 
that is an attempt to try to deal with this issue. We want to 
work with you to hopefully improve on that language.
    I am referring to section 1003 in the draft bill. And it 
attempts to address the concern of projects that reach their 
statutory limit. We have a couple of those in Nebraska.
    Senator Boxer. We all do.
    Senator Johanns. Yes, I think most States have this same 
problem.
    So literally, the project can stall because the statutory 
language prevents any further expenditure in the area. We want 
to try to find a solution to that. And like I said, I 
appreciate your attempt to deal with that in this draft 
language. We will have some suggestions that we will work with 
your staff and with you, Madam Chair, to hopefully improve on 
that language.
    Senator Boxer. Let me just say publicly what I told you 
privately: absolutely. Because we have the same goal. If your 
staff feels that the language doesn't do the job, absolutely. 
So we can get that done in the next couple of days.
    Senator Johanns. Great. I will wrap up with this. I was 
very, very pleased to be a supporter of that highway bill, not 
only in Committee, but on the floor. I have talked about it a 
number of times. I have pointed to that bill and said, 
notwithstanding all of the rancor and partisanship, here is a 
good example of how things can get done. It is my hope that we 
embrace WRDA with the same bipartisan enthusiasm, to get a bill 
done, get it to the floor and get it passed. It is important to 
all of us, and my hope is we can work together to get it done.
    Thank you, Madam Chair.
    Senator Boxer. Thank you so much.
    Senator Boozman.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Madam Chair. Certainly my 
spirits are uplifted when I see you and Senator Inhofe 
together. We appreciate you all together having this hearing 
today.
    The civil works program of the U.S. Army Corps of Engineers 
is vital to the strength of our country. Recreation, 
navigation, hydropower, flood control, irrigation, water 
supply, all of these things benefit not only the State of 
Arkansas, but our whole country. Our manufacturers, farmers, 
businesses, in order for them to succeed in a competitive world 
where 95 percent of all customers are competitors are overseas. 
The Water Resources Development Act is the tool that enables us 
to reshape the Corps' civil works program to meet the changing 
needs and conditions we need to get back to regular 
consideration of these bills.
    In particular, I am interested in strengthening the Inland 
Waterways Trust Fund, so that we don't allow the deterioration 
of our incredible inland waterway system. We in Arkansas feel 
the pain of underfunding today. The consequences are certainly 
there in Arkansas. We have seen the Corps cutting back service 
on our inland waterways like the Washita River and the Arkansas 
River. We have to fix this. We also need a mechanism, and I 
think this is very important, to authorize new projects and 
existing authorizations. I know both of you all have been a 
real champion of that.
    From water supply and irrigation projects to navigation and 
ecosystem restoration priorities, projects across Arkansas, but 
all across America, are not receiving the attention that they 
deserve. We need to protect the jurisdiction of the Committee 
and defend the oversight role of Congress. Congress as a whole 
should not surrender all authority over Federal spending to 
this Administration or to any other future Administration, 
whether it be Republican or Democrat. Hopefully we can work 
together and figure out a way, a bipartisan way forward to get 
us out from underneath that situation.
    A WRDA bill can make the Corps more efficient while 
ensuring we have the resources to maintain and improve our 
water infrastructure. Again, I thank the witnesses very much 
for being here today. I look forward to your testimony.
    Senator Boxer. Very good.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    I would like to echo the comments heard on both sides of 
the aisle. I agree with my colleagues who believe that moving 
forward with the WRDA bill is important for our communities. 
The bill you have put forward is a good first step in that 
process. Issues such as flood mitigation are very important to 
my State of Wyoming. I believe we need to eliminate the 
barriers to constructing and maintaining levees and to 
completing flood control projects that keep our communities 
safe.
    In 1985 the town of Baggs, Wyoming, faced a major flood. 
The entire town had to be evacuated, and it was over a million 
dollars' worth of damage done. In mid-May 2008 Baggs faced 
another potential major flood. The Wyoming National Guard was 
called in to assist, as well as the Wyoming Department of 
Homeland Security.
    At the request of the Department of Homeland Security, the 
Army Corps Sacramento office sent an official who was able to 
oversee the reinforcement of existing berms and the 
construction of new ones. This time, Baggs didn't need to be 
evacuated and the damage was minimal. Baggs isn't the only town 
in Wyoming to need assistance to protect itself from the threat 
of flooding. In the town of Greybull, there are levees that are 
Army Corps-built but locally maintained. In Diamondville, there 
are locally built levees that are locally maintained.
    A lot of the levees in places like Worland, Laramie, 
Jackson Hole, are in one or the other category. The Sheridan 
flood control project on Goose Creek and the Greybull levees 
participate in the Corps' program called Rehabilitation and 
Inspection Program, RIP. By participating in this program, the 
Corps occasionally inspects these levees to ensure that the 
cities are keeping them in good order. But if catastrophic 
events occur, these levees will be eligible for Federal funds 
to rebuild them after the disaster.
    So in Wyoming, we try to be as proactive as we can be. But 
in towns like Baggs and Greybull and Diamondville and Worland, 
repairs can be very expensive. Many of my colleagues in 
Wyoming, officials have praised the emergency assistance that 
Wyoming has received from the Corps during the floods of 2010 
and 2011. They built several temporary flood walls and sent 
about 25 personnel to Lander, Wyoming, during the 2010 event.
    It cost an estimated $5 million to fight that flood. After 
the floods, the Popo Agie Conservation District, Freemont 
County Commission, the city of Lander all entered into an 
agreement with the Corps to do flood mitigation planning in and 
around the Middle Fork River, which runs through the town of 
Lander. This project would involve measures to reduce flooding 
in Lander and reduce the need for emergency response during 
times of high water.
    So projects like this are in the planning phase. We need to 
move forward as expeditiously as possible. We must address 
priorities. I believe there are provisions in this bill that 
need to be reworked, strengthened, some eliminated. But this 
draft bill is an important first step, and I look forward, 
Madam Chairman, to working with you to move the bill diligently 
through a bipartisan process that respects regular order. Thank 
you so much for your efforts.
    Senator Boxer. Senator Barrasso, let me just say I really 
appreciate your examples. Because in my opening statement, I 
pointed out that even though we have lots of problems with the 
Corps, and people could testify to that, where it didn't work 
as it was supposed to, in 2010, with all the problems 
nationwide, they figure that the Corps projects that were built 
prevented $28 billion of damage nationwide. Yes.
    So these investments that we make that are expensive, there 
is no doubt, look at what happened in Katrina. I was talking to 
Senator Vitter, asking him for a ballpark. I don't even want to 
say what he said, because he said, don't quote me on this, but 
it is in the tens of billions, let's put it that way, the upper 
end. And when we look at what happened in Sandy.
    So for us, this WRDA bill is such an opportunity to help us 
save money at the end of the day. And this ban on earmarks that 
Senator Boozman alluded to, the power given to the 
Administration or any future Administration, is something that 
Senator Inhofe and I have agreed from the start was not the way 
to go. It is what it is.
    But what we are trying to do in this bill, through many of 
the provisions, is make sure that the Corps goes the places 
where the money is needed. Eventually I think we are going to 
have to revisit this whole thing.
    But let's work together in this bill to make sure that we 
have a check and balance on what projects get funded, and we 
are very clear in directing through standards where the money 
goes.
    Senator Boozman. And I agree with that, totally.
    Senator Boxer. Good. I am really glad.
    And let me say, we are going to go to the panel. Because of 
an airplane flight, I am going to have to leave earlier than I 
would like, around 20 of. And Senator Whitehouse has agreed to 
take the gavel for me. If he is not here, I will ask other 
Senators on our other side to take the gavel. But we are very 
interested in your comments, and we will move to Stephen 
Curtis, Board Member and At-Large Director, American Society of 
Civil Engineers.
    Welcome.

STATEMENT OF STEPHEN A. CURTIS, P.E., M.ASCE, BOARD MEMBER AND 
     AT-LARGE DIRECTOR, AMERICAN SOCIETY OF CIVIL ENGINEERS

    Mr. Curtis. Thank you, Madam Chairwoman, Ranking Member 
Inhofe, members of the Committee. It is an honor for me to 
appear before the Committee today on behalf of the American 
Society of Civil Engineers to discuss the Water Resources 
Development Act of 2012.
    ASCE commends the Committee for moving forward on 
legislation for our nation's vital water resources 
infrastructure. Currently, the United States does not have a 
national safety program for levees. Many levees are deeded to 
local governments or associations who may not maintain them or 
even recognize the risks. Additionally, there is currently no 
dependable inventory of the significant number of levees in the 
United States.
    While flooding from Hurricane Katrina demonstrated the need 
for consistent, up to date standards for levees, the nation 
still awaits a national levee safety program. The Federal 
Government must accept the responsibility for the safety of all 
federally funded levees, and should be working to create a 
national levee safety program modeled on the successful 
national dam safety program and the recommendations of the 
National Committee on Levee Safety.
    ASCE commends the Committee for establishing nationwide 
requirements to protect the health and welfare of citizens from 
the effects of levee failures. Title VI would take the first 
steps toward establishing a national levee safety program. 
While ASCE has had some constructive comments about ways to 
improve the design of the program, the discussion draft is an 
excellent starting point.
    Section 6003, which lays out definitions, needs to be 
clarified in order to make clear that the language does not 
exclude any levee structure that is not part of the Federal 
flood reduction system. As written, the language might be mis-
read to understand that a large number of levees in the United 
States are excluded, thus weakening the program.
    ASCE strongly believes that a majority of levees in the 
United States need to be within the National Levee Safety 
Program. Therefore, a clarification on section 6003 would 
guarantee that no critical levee is excluded.
    Section 6004 would require the establishment of a set of 
voluntary, comprehensive, national levee safety guidelines. 
However, States--not the Federal Government--should have 
primary authority for implementation of the national levee 
safety program within their borders. A levee safety program 
will be more effective if States tailor their programs to meet 
local needs. Federal laws should encourage State governments to 
create levee safety programs and complete the national 
inventory of levees.
    One additional provision for a new levee safety program 
would be the inclusion of a maintenance of effort clause for 
the States. The National Dam Safety Program has benefited from 
such a clause because it has held States accountable for 
continuing to appropriate funding.
    ASCE also commends the Committee for adding the Dam Safety 
Act of 2012 as a separate title in WRDA 2012. This bipartisan 
language in the draft bill would authorize a national dam 
safety program through 2016 at $13.9 million annually, while 
providing grants to improve State dam safety programs. This 
legislation recognizes that the Federal Government plays a 
vital role in ensuring that States improve their dam safety 
programs.
    Finally, the current trend toward reduced investment in our 
ports and harbors has led to ever greater balances in the 
Harbor Maintenance Trust Fund. By September 2013 the Office of 
Management and Budget estimates that the trust fund will have a 
balance of more than $6 billion. ASCE applauds section 8002 for 
stating that ``the total budget resources for a fiscal year 
shall be equal to the level of receipts for harbor maintenance 
that fiscal year, which amounts shall be used only for harbor 
maintenance.''
    It is important that any legislation requires that all 
funds received by the Harbor Maintenance Trust Fund be 
appropriated each year to ensure that U.S. ports are prepared 
to meet modern shipping needs. Including language that 
appropriations are not taken from other Corps of Engineer 
programs is also critical. However, while the EPW Committee 
does not have the tax jurisdiction for the trust fund, ASCE 
would like to make clear our concern that we have not yet seen 
language creating a financing mechanism which will guarantee 
funds are used for harbor maintenance.
    One last note before I conclude. ASCE strongly supports the 
creation of the WIFIA program as one financing mechanism for 
water resources projects. We look forward to working with this 
Committee as such a program is analyzed.
    Thank you, Senator Boxer. I would be pleased to answer any 
questions.
    [The prepared statement of Mr. Curtis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you very much for your constructive 
advice to us.
    Next, Terry Sullivan, State Director, Rhode Island Chapter, 
The Nature Conservancy.
    Welcome, Mr. Sullivan.

         STATEMENT OF TERRY SULLIVAN, STATE DIRECTOR, 
          RHODE ISLAND CHAPTER, THE NATURE CONSERVANCY

    Mr. Sullivan. Thank you.
    Madam Chairman, Ranking Member Inhofe, and members of the 
Committee, thank you for the opportunity to testify on the 
Water Resources Development Act of 2012. The bill can improve 
the health and security of our nation's water resources and the 
diverse benefits that they provide to all Americans. We 
appreciate your leadership, along with the Ranking Minority 
Member and other members of the Committee for moving this 
important piece of legislation forward.
    As the Director of the Rhode Island State Chapter of The 
Nature Conservancy, I appreciate the change to express our 
thoughts as Rhode Island and neighboring States recover from 
the devastating effects of Hurricane Sandy. First and foremost, 
my thoughts and prayers are with those people throughout the 
region who continue to suffer from a lack of adequate shelter, 
heat for their home, and running water. Sandy was a mighty 
storm, and it hurt a lot of people.
    The provisions of this bill, if enacted, will make a 
difference in a number of important ways, including helping to 
reduce the impacts of increasingly violent weather events now 
affecting the lives of so many Americans. This bill also takes 
important steps toward modernizing our water resource 
infrastructure and putting it on a more sustainable financial 
footing.
    The Nature Conservancy is an international non-profit whose 
mission is to conserve the lands and waters upon which all life 
depends. We have been engaged in water resource issues across 
the U.S. for many years. In fact, we sponsor more projects with 
the U.S. Army Corps of Engineers than any other non-profit 
organization.
    My comments today will focus on four areas of particular 
interest to the Conservancy: improving the ability to address 
water resources in an integrated and comprehensive manner as 
the best way to cost effectively manage our water resource 
infrastructure; strengthening support for the restoration of 
natural systems so Americans can continue to enjoy the economic 
and social benefits these systems provide, including their 
ability to help deal with the threats of intensified storms, 
floods, and droughts; finding new ways to finance and fund 
water resource investments that allow a wide range of partners 
to participate in developing and managing these projects; and 
making a number of important changes to existing policies that 
will improve the Corps' ability to achieve our national water 
resource goals, as articulated by this Congress.
    We have reached a critical point in how this nation is 
going to plan and manage investments in our nation's water 
resources. On the one hand, the impacts of changing weather 
patterns are making the importance of sound water management 
clearer than ever. At the same time, the tremendous backlog of 
funding for authorized projects and the fiscal limitations on 
future spending compel us to find more cost effective ways of 
doing business. This WRDA bill can be an important step in 
addressing those challenges.
    While our country has built water resource projects usually 
one at a time, we now recognize that it is the cumulative 
effects of our investment in many projects that determine their 
environmental and economic benefits and impacts. We are pleased 
to see this bill more comprehensively address the 
implementation and funding of projects related to navigation, 
flood control, environmental restoration, dam operations, and 
safety. This means planning and managing on a watershed basis 
and making investment based on broader collective needs of many 
stakeholders in a watershed.
    Toward this end, we support the provisions of Section 2012 
Dam Optimization, which would facilitate evaluation of dam 
operations in a watershed context and allow reoperation of dams 
to better take into account their multiple purposes and 
benefits in conjunction with functions of flood plains, 
wetlands, and estuaries that are part of those watersheds. In 
addition, we support the authorization of the NAS, National 
Academy of Sciences, to undertake a study on how we can be more 
effective in managing our water resources related to floods and 
droughts and support the new authority to undertake watershed 
scale studies related to post-disaster emergencies.
    We must integrate the role of healthy and functioning 
natural futures into river and coastal management. Restoring 
natural flood plains and wetlands can improve water storage 
practices and help reduce the impacts of floods while 
increasing the flexibility and the management of reservoirs and 
other water infrastructure. On our coasts, it is now clear that 
restoration and conservation of coastal features, marshes, 
barrier beaches, coastal ponds, oyster reefs, and seagrass beds 
are [unclear] important in reducing the impacts of storms.
    Given this, we strongly support reauthorization of the 
restoration projects in the Everglades, the Louisiana wetlands, 
coastal Mississippi, and Chesapeake Bay. The Nature Conservancy 
also supports increasing the authority for continuing authority 
programs contained in title II of the draft bill. And we 
support the new authority for a North Atlantic coastal planning 
project contained in section 5002 of the draft WRDA bill that 
would provide the Corps with the ability to plan and implement 
restoration projects in the whole North Atlantic Coast, from 
Maine to Virginia. This new authority can serve as a model for 
region-wide coastal planning from the Corps.
    The Nature Conservancy's public opinion polls show that 
virtually all Americans, regardless of their political 
affiliation, believe strongly that care of the nation's water 
resources is an important priority. In these difficult fiscal 
times, we can only make progress on this priority by 
organizations, Government agencies, and the private sector 
working together. We believe the WRDA 2012 bill is an important 
step in this direction. We look forward to working with the 
Committee, the Corps, with navigation, flood safety, and other 
organizations in advancing its provisions.
    Thank you for the opportunity to testify here today, and we 
look forward to submitting more detailed written comments.
    [The prepared statement of Mr. Sullivan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you so much.
    Our next speaker is Amy Larson, Esq., President, National 
Waterways Conference, Inc.

 STATEMENT OF AMY W. LARSON, ESQ., PRESIDENT AND CEO, NATIONAL 
                   WATERWAYS CONFERENCE, INC.

    Ms. Larson. Chairman Boxer and Ranking Member Inhofe, and 
distinguished members of the Committee, thank you for the 
opportunity to be here today to discuss the Water Resources 
Development Act of 2012. The Conference would like to thank 
Chairman Boxer for her leadership in developing WRDA 2012 as 
well as Senator Inhofe and this Committee for its long 
tradition of cooperation and collaboration in addressing the 
nation's critical water resources needs.
    There is much in the draft to support in furtherance of a 
comprehensive and robust program. But in the interest of time 
and given the depth and detail, rather than go through section 
by section, my goal today will be to offer some comments on the 
overarching policies. We look forward to working with the 
Committee as it further delves into this process.
    You will note in my written statement comments on why we 
believe the Corps projects should not be considered earmarks. 
In the interest of time, I had deleted that section from my 
testimony this morning. But I would like to take the 
opportunity to support the comments made already and encourage 
the Congress that this is the opportunity to rethink how our 
nation invests in our nation's water resources.
    Turning to title VI, the Levee Safety program. The 
importance of well built and well maintained levees cannot be 
understated. Levees are both abundant and integral to economic 
development and flood risk reduction in hundreds of large and 
small communities, industrial zones, urban areas, agricultural 
regions, and vitally strategic zones in the United States. To 
that end, we strongly support the legislation's call for a one-
time inventory and inspection of all levees identified in the 
National Levee Data Base as a critical first step to the 
establishment of a successful levee safety program.
    The baseline information garnered from such an inventory, 
including much of the non-Federal stock of levees, should then 
be included and maintained in an expanded data base in order to 
address critical safety issues, the true cost of good levee 
stewardship and the state of individual levees. And that can 
inform our priorities and provide data for a much needed 
assessment and decisionmaking.
    We agree with the proviso that the States and Indian tribes 
are uniquely positioned to oversee, coordinate, and regulate 
both local and regional levee systems. And we recommend that 
levee safety guidelines developed pursuant to this legislation 
preserve State and local government prerogatives, so that these 
guidelines truly do serve as guides.
    We support the appointment of an administrator for a 
program within the Corps of Engineers whose sole duty is the 
management of that program. And while we appreciate the intent 
behind the creation of a national levee safety advisory board, 
at this point we suggest that perhaps it is premature to stand 
up that board. Let's first do the full assessment to frame our 
understanding of system locations, conditions, and the national 
risk situation, and then determine how to frame and focus the 
work of such a board.
    The draft calls for the Comptroller General to prepare a 
report on possibilities for alignment of Federal programs to 
provide incentives and disincentives to promote shared 
responsibility. While we support efforts to enhance levee 
safety, we are very concerned about what disincentives might 
mean under this directive. We cannot penalize people who live 
in communities near the water or behind levees. Rather, we 
should fully identify and assess the problems through the 
completion of the inventory discussed above and then work 
through an open, informed, and systematic approach to bring 
deficient flood control structures to a level of protection we 
can live with and afford.
    In that regard, the theme of shared responsibility between 
Federal, State, and local government is threaded through the 
discussion draft. We share the sentiment but believe that for 
hundreds of leveed areas and millions of Americans, shared 
responsibility must mean more than simply increased Government 
oversight and standard setting. It must also include shared 
responsibility for actual infrastructure improvements and 
support of comprehensive flood safety.
    Turning to inland waterways, as we previously discussed 
this morning, ensuring the reliability of our inland waterways 
is essential to maintaining the nation's economic and 
environmental well-being and competitive position within the 
global economy. To that end, we generally support the proposed 
reforms for project delivery applicable to the construction and 
major rehab of these projects, consistent with the process set 
forth by the Inland Waterways Users Board in the Capital 
Development Plan.
    Also integral to the project delivery reforms is the need 
to ensure sufficient funding for these important projects. 
While a proposal to increase the revenue in the Inland 
Waterways Trust Fund is not considered as part of this draft 
legislation, we would encourage the Committee, along with the 
Finance Committee and the Senate as a whole, to give careful 
consideration to the other proposals under development, to 
ensure a long-term funding mechanism to ensure the continued 
reliability of the nation's inland waterway system.
    I see that I am just about out of time. But before ending, 
I would like to turn to the Harbor Maintenance Trust Fund.
    Senator Boxer. I am going to ask you to summarize that 
piece.
    Ms. Larson. We urge support for legislation that ensures 
that revenues collected are used for their intended purposes. 
That is a good summary, and I will save project acceleration to 
the question time.
    Thank you very much.
    [The prepared statement of Ms. Larson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you so much for that. Very good 
advice. All of you have been so helpful. I have been telling my 
staff that these ideas are really important.
    And now it is certainly my honor to introduce someone from 
my home State, my home county, actually, and that is Warren 
Dusty Williams, President of the National Association of Flood 
and Storm Management Agencies. He is the General Manager and 
Chief Engineer of the Riverside County Flood Control and Water 
Conservation District.
    We are very pleased that you are here, Mr. Williams. Please 
proceed.

  STATEMENT OF WARREN DUSTY WILLIAMS, PRESIDENT, NAFSMA, AND 
  GENERAL MANAGER AND CHIEF ENGINEER, RIVERSIDE COUNTY FLOOD 
            CONTROL AND WATER CONSERVATION DISTRICT

    Mr. Williams. Thank you, Madam Chair. Members of the 
Committee, Madam Chair, my name is Dusty Williams. I am the 
President of NAFSMA, the National Association of Flood and 
Stormwater Management Agencies.
    I am pleased to appear before you today to present this 
testimony addressing proposals for WRDA 2012. NAFSMA 
appreciates the difficulty of drafting this much needed bill in 
light of the serious economic issues facing the nation and the 
constraints of earmark limitations. We thank you for taking on 
this challenge and offer to work with you to address these 
critical issues as you continue your efforts.
    NAFSMA is a public agency driven organization with a focus 
on effective flood and stormwater management in urban areas. 
For 35 years NAFSMA's mission has been to advocate public 
policy and encourage technologies in watershed management that 
focus on flood protection, stormwater and flood plain 
management.
    The organization is keenly aware that flood damage 
reduction activities and projects are a wise and necessary 
investment that reduce loss of life and ensure the safety of 
our citizens. They have also proven to be an investment that 
more pay for themselves by preserving life and property and 
thereby reducing recurring requests for Federal disaster 
assistance.
    To that end, NAFSMA has several recommendations for the 
WRDA 2012 bill. While our formal written testimony discusses 
more than a dozen recommendations, I would like to spend just a 
few moments on highlighting a handful of the more significant 
proposals.
    First, we applaud the enactment of a WRDA. The 
reauthorization of WRDA is critical. In the wake of the 
enormous devastation and suffering caused by Sandy, moving our 
nation's flood risk management initiatives forward is more 
important than ever. Local, regional, and State agencies depend 
on WRDAs for reauthorization.
    Exclude Corps of Engineers water resources projects from 
definition of earmarks. Federal funds used to reduce the loss 
of life and property damages from floods are an investment in 
improving the resiliency of a community and the nation. The 
Corps of Engineers' process and associated legislative 
requirements for identifying, vetting, and funding potential 
projects is an example of a transparent and public process 
which does not belong in the earmark category.
    The enactment of a national levee safety program. As a 
member of the National Committee on Levee Safety, I am 
especially pleased that the NAFSMA membership approved a 
resolution in support of the National Levee Safety Program. 
NAFSMA's resolution notes that the nation lacks a complete 
understanding of levee location, ownership, and condition, and 
that Federal funding participation is required for the 
rehabilitation and repair of levees, many of which were 
constructed in partnership with the Corps.
    NAFSMA urges Congress to move forward with a voluntary and 
incentive-based national levee safety program that includes 
qualified States and local and regional flood control agencies. 
In the spirit of shared responsibility, NAFSMA urges Congress 
to enact a repair, rehabilitation, and flood mitigation program 
to address critical levee repairs and authorize Federal cost 
sharing with owners and operators of levee systems.
    Develop and implement measures to more closely harmonize 
levee operation and maintenance activities with environmental 
protection requirements. This National Committee on Levee 
Safety recommendation is particularly important to NAFSMA 
members, who are currently trying to maintain the integrity and 
strength of their existing levees so they provide the flood 
reduction capabilities expected by the public. NAFSMA urges 
Congress to clarify routine Maintenance of flood damage 
reduction channels and basins and to improve the regulatory 
process for obtaining the necessary permits for routine 
maintenance of these facilities.
    NAFSMA generally supports the establishment of a water 
infrastructure finance and innovation initiative for projects 
that are capable of producing revenue streams as an additional 
funding tool that would complement existing Corps cost shared 
project funding. Project selection criteria under this program 
should consider job creation and economics, ecological, and 
social benefits. NAFSMA also urges loan repayment options to 
include local taxes, user fees, and private sources, and also 
secured non-Federal loans.
    Levee vegetation policy. NAFSMA strongly supports language 
included in the draft bill that directs the Assistant Secretary 
to conduct a comprehensive review of Corps policy guidelines 
regarding vegetation on levees. NAFSMA has raised concerns 
about the one size fits all nature of this policy, which we are 
concerned is not supported by conclusive research.
    Provide incentives for sound flood plain management. NAFSMA 
supports the current Federal cost share of 65 percent Federal, 
35 percent local, but urges that the 35 percent local cost 
share be reduced for non-Federal sponsors where the community 
is carrying out sound flood plain management activities.
    Increase the limit for requiring independent peer review. 
NAFSMA recommends raising the floor that triggers external 
independent peer review to $100 million or more. Setting the 
level at $45 million brings in smaller water resource projects, 
and we are concerned that the benefits are not proven for 
addressing projects of this scale.
    In closing, NAFSMA very much appreciates this opportunity 
to testify, and our members look forward to working with the 
Committee in producing a viable WRDA 2012. I would be happy to 
answer any questions the Committee may have.
    [The prepared statement of Mr. Williams follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. Thank you so much, Mr. Williams, and the 
entire panel.
    What I am going to do now is ask unanimous consent to enter 
the following letters into the record. They have endorsed 
aspects of the discussion draft we are considering today and 
they support moving forward with the WRDA bill in addition to 
the comments made today. National Association of Home Builders, 
the U.S. Chamber of Commerce, the American Water Works 
Association, the Water Environment Federation, the Association 
of Metropolitan Water Agencies, the Water Infrastructure 
Network, the Association of State Flood Plain Managers, the 
Central Valley Flood Protection Board, Municipal Water District 
of Orange County, Sutter Butte Flood Control Agency, San 
Joaquin Area Flood Control Agency. This is just a start.
    And this reminds me of what happened, without objection, 
put those in the record.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. What happened, colleagues, when we did the 
highway bill, the outside support, the wind at our backs, is 
beginning to develop for this bill. I wanted to say to Senators 
Whitehouse and Carper, who weren't here for the opening 
statements, that our colleagues on the other side could not 
have been more cooperative and more willing to work with us.
    So I have some very good feelings. And when you add all of 
that up and a very constructive criticisms of the draft, which 
I hope you will continue to do, because I laid it out there 
just to have a starting place, and we added a new section that 
deals with--dealing with extreme weather events, which was 
really brought home to us by Senator Lautenberg.
    I think we have an opportunity here to make tremendous 
progress in the short term. And I wanted to say to the staffs 
of the Republicans that we are so ready to work with everyone. 
This coming week we are going to have a hearing, with the 
cooperation of Senator Inhofe and his wonderful staff, and with 
these here, we are going to have a hearing on the report that 
you started, Senator, on what happened on the ground with 
Hurricane Sandy, which is going to feature my colleague, 
Senator Lautenberg, and Senator Menendez, and the Senators from 
New York, maybe Connecticut. And we hope some State 
representatives.
    With all that behind us, we are really ready to go. I just 
want to urge staff on both sides to please work with Jason and 
with Bettina and others who are here working every day on this. 
They have been working every day on this.
    Let's get this done. Because as you know, once we get it 
out of here, and I envision a very good vote out of here, we 
then have to go to the leaders and say, let's move it through. 
And I have a very good feeling. So at this time, I have 
arranged, because Senator Whitehouse was so kind to take the 
gavel, stay here as long as it takes, handing him that gavel. 
He said he could do that. I am very appreciative, I have to 
catch an airplane.
    The order now will be Senator Whitehouse will do his 
opening and questions, as I understand it, and then the other, 
Senator Carper can make an opening and Senator Lautenberg can 
have the floor for his questions. I will leave it up to you, as 
long as it takes, and as long as our witnesses are ready to 
stay.
    Thank you very much, everybody.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse [presiding]. Thank you.
    What I will do is give a brief summary of my opening 
statement and then yield to Senator Lautenberg to do his 
questions. I think he has been here the longest. And then to 
Senator Carper.
    Senator Carper. I haven't given an opening statement. If I 
could, once you have said your opening, if I could just mention 
one thing.
    Senator Whitehouse. OK, with Senator Lautenberg's 
permission.
    Senator Lautenberg. Yes, absolutely.
    Senator Whitehouse. Let me first recognize Terry Sullivan, 
from Rhode Island. I am delighted to have a Rhode Islander 
here. He is the head of The Nature Conservancy, which does 
terrific work in Rhode Island. And I am very grateful that he 
is here, along with the other witnesses.
    We obviously have this hearing in the wake of Hurricane 
Sandy, which did not hit my State, thankfully, as hard as it 
hit Senator Lautenberg's. But it hit pretty hard. It was the 
second costliest Atlantic storm in U.S. history, and reached up 
and down the Atlantic seaboard. It swept Rhode Island houses 
like this one right off their foundation. It is kind of nice to 
be showing this picture in this hearing room, because the 
fellow in the green jacket was a member of this Committee, 
Senator Lincoln Chaffee, who is now the Governor of the State, 
surveying the damage there in Matunuck. We had roads completely 
overwhelmed. This is digging out Atlantic Avenue in 
Misquamicut, and now at least emergency vehicles and 
construction vehicles could get through. But you can see the 
amount of dislocation that took place there. A hundred and 
thirty thousand Rhode Islanders lost power. Eight cities and 
towns implemented evacuation plans. Four out of our five 
counties were declared disaster areas.
    And this is not the first time that significant weather 
events have hit Rhode Island hard. Here is beautiful downtown 
West Warwick, with folks being evacuated from their homes by 
Jet Ski down what would ordinarily be the main road as a result 
of our 2010 flooding, which was not ocean-based, but rain-
based. That flooding exceeded anything we have seen in Rhode 
Island since we started keeping records in the 1870s. So it is 
clear that a warming planet increases the severity of these 
storms and that it loads the dice for extreme weather. So it is 
really important in this bill that we meet the infrastructure 
responsibilities that we have to keep communities safe and 
prosperous in a changing climate.
    So I am delighted that Chairman Boxer included provisions 
that would help communities prepare for and mitigate the 
effects of storms like Sandy. I am delighted that there is a 
northeast coastal ecosystem restoration program, which is 
something that the damage that Sandy has created highlights. I 
am delighted that there is a reauthorization of the National 
Dam Safety Program. Rhode Island has more than 700 dams. We are 
not a big State, but we have a lot of dams. Many of them are 
very old. The famous Slater Mill Dam that ushered in the 
industrial revolution across this country was built in 1793. 
And it is still there.
    Many of these dams are in poor condition. One hundred and 
seventy-nine are rated high or significant risk dams. And that 
is not a unique tale to Rhode Island. Our nation's dams 
received a D grade from the American Society of Civil Engineers 
in their 2009 Report Card, which cited more than 4,000 
deficient dams, including more than 1,800 below which people 
were living that risked loss of life if they failed.
    Another provision I requested to provide grant assistance 
to dams for the rehabilitation and repair of deficient dams is 
not included in this draft, but I promise to keep working hard 
to make sure that it gets into the final bill. I think that is 
an important piece of legislation.
    I will close by saying that there is a lot of frustration 
about the Army Corps and its backlog and the pace at which 
projects go forward. We hope to look at perhaps creating a fast 
track for disaster related Army Corps work that needs to be 
done. And I think it is noteworthy that the Corps has not 
published a list of de-authorized projects since 2009, which 
makes the whole backlog process non-transparent and vague. And 
that the fiscal transparency report that was required of the 
Corps by Congress in the 2007 WRDA reauthorization has never 
been, here we are in 2012, never been provided.
    So I think there is a lot of great work that we have to do, 
and I will turn to Senator Carper for his opening statement 
before going to Senator Lautenberg for his questions.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks so much, Mr. Chairman.
    Thank you all for joining us today and for your comments. I 
want to commend our Chair and Ranking Member for the spirit in 
which they approaching this legislation. I thank our staffs--
Democrat and Republican--for the good work that has been going 
on already and for the opportunity that has been afforded to 
all of us to provide input to the shaping of this legislation 
which we continue to this day.
    Though the subject of today's hearing is investing in water 
infrastructure, including ports and navigation, waterways, 
flood control, and environmental restoration, I think what this 
hearing is really more about is job creation and economic 
growth, protection of life and property but also helping to 
establish a more nurturing environment for job creation and job 
preservation. My colleagues have heard me say from time to time 
that a major responsibility of ours is to create that nurturing 
environment for job creation. That includes investing in work 
force, a world class work force, the skills that we need to be 
competitive, investing in research and development and 
technology that can create goods and products that can be sold 
all over the world.
    And also investing in infrastructure broadly defined, by 
broadly defined. Now is a critical time to be focused on 
infrastructure investment. However, it is a particularly 
challenging time, as we know, as both our Federal and State 
governments are facing daunting deficits.
    But in this context, I think that the WRDA bill, the right 
WRDA bill, could be a good prescription for addressing several 
points in an economic recovery plan. We can create a more 
nurturing environment for jobs by investing in water 
infrastructure which in turn boosts trade and helps us sell 
American products around the globe. And we can do so in a way 
that is fiscally responsible.
    I believe that each of the three Corps missions, and there 
are some excellent examples of each type, projects around 
Delaware, and I am sure my colleagues can find those projects 
in their States, but in the Delaware River, we are in the 
process of deepening the main channel in the Delaware River 
from 40 feet to 45 feet. This will help ports up and down the 
river, including the Port of Wilmington, to accommodate the 
newer, bigger ships that will begin arriving on the east coast 
when the Panama Canal expansion is completed. A deeper channel 
in the Delaware River means more trade, and that is a message 
that I heard from businesses at the Port of Wilmington, which I 
recently visited.
    Flood control projects along Delaware's Atlantic Coast are 
another great example. These projects protected the lives of 
our coastal population during Superstorm Sandy and prevented 
billions of dollars in damage. These projects protected a 
region that is vital to our State's economy. Tourism is the 
fifth largest private sector employer in Delaware. It 
represents about 15,000 full-time jobs, a lot more part-time 
jobs, and some $750 million in annual revenue, which is a lot 
of money for a little State.
    So that has been critical. However, as important as 
projects like these are, we also need to be mindful of 
provisions that can make sure our investments are smart, that 
they are strategic, and that they are prioritized. That is why 
I am proud to support key reforms. In our last WRDA bill in 
2007, it was a pleasure to work with this Committee, Democrats 
and Republicans, to pass these provisions in 2007. And since we 
have worked to ensure that they are well implemented and having 
the desired impact.
    As we move forward, I want us to keep these reforms in 
mind. Some of the best advice I have ever received since I came 
here was, find out what works and do more of that. And be 
focused on how to get better results for less money or better 
results for the same amount of money. Now is the time to 
examine how reforms are working that we adopted 5 years ago, 
but to do more of what works and to revisit and improve any 
policies that don't work as they were intended.
    If I could shift gears for just a moment, I would like to 
take maybe a minute to talk about a recent feature in our 
State's newspaper, the Delaware News Journal papers. The 
feature included more than a dozen articles over the course of 
an entire week that showed that the sea level along Delaware's 
coast is rising, and communities are facing major challenges as 
a result. Whatever you believe may be the cause of this, it is 
fact that in Delaware and in other States, every year the water 
line is higher. And we need to take steps to ensure that the 
people and communities who depend on Corps projects and have 
confidence that those projects are built with rising seas in 
mind and are built to withstand the stresses of stronger, more 
frequent storms.
    This is not just an issue for coastal States. Record 
flooding in the Midwest and Northeast last summer, and the 
droughts that we are still suffering from across this country 
are both evident that we need to be developing projects with 
the changing climate in mind. This Committee has tackled big 
issues several times already this year. I am confident that, 
working together, we can find agreement on a path forward on 
this legislation.
    If you doubt for a minute, all you have to do is look back 
at the Committee's leadership, Democrat and Republican, who 
defied the naysayers to pass a multi-year transportation bill. 
So in closing, let me just say that I am delighted that our 
Chair and Ranking Member are using every last minute of this 
lame duck session to address some of these important priorities 
of our country. I want to commend our leaders of the 
Environment and Public Works Committee for putting such a high 
priority on moving this bill, and I hope that we can continue 
to work on this important legislation when Congress returns 
after the session.
    I thank you, and I thank my friend from New Jersey, my 
neighbor across the Delaware River, for allowing me to give 
that statement.
    Thank you, sir.
    Senator Whitehouse. I will now recognize Senator Lautenberg 
for questions, then Senator Carper for questions, then I will 
close out myself.
    Senator Lautenberg. A little question arises. You are 
looking at the three smallest States in the country. And that 
doesn't mean we don't have power. And it doesn't mean that we 
are spare of people. We make lots of use of our coastline. Each 
one of these States has a particular exposure to coastline. We 
are coastal States, and we enjoy that position. It brings in 
lots of business, lots of port opportunities, lots of 
recreation interest, and lots of second homes.
    And so when we look at what abilities we have to finance 
these projects that are necessary, one thing strikes me that 
threads through the discussion here is that when it is dome, 
when a berm, a beach construction, or a dam is built by the 
Federal Government typically, the engineers, it is a far more 
reliable kind of structure than we will have if we depend on 
local funding and design to be able to do the right thing for 
the area. Because wherever you put a dam, wherever you turn a 
river flow, it may be an advantage to the community in which it 
is structured as opposed to the long-term value of something 
like that. And it is little more philosophical than I think we 
might deal with right now. But it certainly has to be 
considered as part of where we are going in the future.
    When we look at the destruction that Sandy--and I resent 
that name, Sandy has kind of a nice feel to it, but it doesn't 
have the ominous threat that this Sandy brought along. So early 
reports show that communities with previously constructed Army 
Corps beach project experienced far less damage than those 
without the beach projects. So as we prepare for future storms, 
what might we have done? What could we do to get more Army 
Corps projects in place to prevent the kind of damage to 
beachfront communities and businesses and public 
infrastructure? Anybody among you, you are all experienced 
people, have any views on how we can change the structuring, 
the formula for design and Development of these things?
    Mr. Sullivan. Senator, I don't know if it addresses it 
directly, but I think the proposal on the northeast ecosystem 
restoration approach is one way to look at this. I think those 
of us who live in coastal communities, and we have, in Rhode 
Island, we have a little over 350 miles of shoreline, 
understand the importance of the question you are asking. One 
of the things we believe is that you have to take a whole 
system approach in thinking about this, that sediment 
management is a big part of that larger approach of thinking 
about how natural resources can help buffer our communities 
from these extreme events.
    So seagrass, beaches, dune structures, oyster reefs, which 
at one time we had many oyster reefs in our coastal waters, 85 
percent of oyster reefs have now been extracted or died off 
because of pollution. They help to lessen the impacts. These 
natural resources help to lessen the impacts of storm events, 
particularly seawater surges.
    So I think the idea of asking the Army Corps of Engineers 
to look at good science and taking a regional approach to how 
to manage these ecosystems in a way that delivers multiple 
benefits for our communities. Safer communities, economies, 
particularly our tourist economies that are more assured that 
in long run will have these natural features that people want 
to come and enjoy. I think that is one way.
    I would just mention the Cape May Meadows project in your 
State, which is a wonderful project that the Army Corps of 
Engineers and the State and The Nature Conservancy participated 
together in implementing. We know--we have seen that folks in 
New Jersey went and took a look at that project. It was a beach 
renourishment plus an ecosystem restoration project. It was a 
combined project. And we know that that project held up very 
well under the winds and the surge and the strength of Sandy. 
So we believe there are other opportunities along the coast to 
do those kind of combined restoration projects that can protect 
communities and our economies.
    Senator Lautenberg. Mr. Chairman, there are other 
questions, and I would suggest, because we have been here a 
long time, that the record be kept open and responded to with 
requests from any one of you, please. So with that, Mr. 
Chairman, I relinquish the opportunity to ask other questions 
right now, and we will send out inquiries to each one of these 
people.
    Senator Whitehouse. I am informed by Committee staff that 
there will be a way to have such a request made to the 
witnesses and to get the answers into the record that needs to 
be coordinated with the minority staff.
    Senator Lautenberg. Thank all of you for your testimony.
    Senator Whitehouse. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Two questions, if I could, the first two to Ms. Larson. And 
it is regarding job creation at our ports.
    There was a recent article--I believe it was in the New 
York Times--about the new wave of the super Panamax ships that 
will be shipping cargo when the renovation of the Panama Canal 
is complete. And dredging the Delaware River to 45 feet will 
certainly help the Port of Wilmington to compete for some of 
that business, along with other ports up and down the river.
    I believe that one of the key roles of government, as I 
said earlier in my opening statement, is to create a nurturing 
environment for job creation and job preservation. We don't 
create jobs, as Senators, Governors, Presidents, Mayors, we 
don't create them, we help create a more nurturing environment 
for jobs. Could you tell me how you think this legislation will 
help you prepare for this opportunity?
    Ms. Larson. With respect to the Harbor Maintenance Trust 
Fund and ensuring that our deep draft ports are ready for the 
super tankers that will come in after the expansion of the 
Panama Canal, the legislation must provide a mechanism for full 
expenditure of the Harbor Maintenance Trust Fund for its 
intended purposes, making sure that the nation's ports and 
harbors are dredged to their authorized depths and widths. I 
think making sure that our trade infrastructure is robust will 
enhance that job creation.
    I will say that while we support the provision calling for 
the full expenditure of the Harbor Maintenance Trust Fund for 
its intended purposes, there is no guarantee provision in 
there. So we will continue to work with the staff to ensure 
that that guarantee is in there. We need to also make sure that 
it doesn't burden the rest of the civil works program.
    Senator Carper. Good. Thank you.
    And my second question would be to Dusty Williams. I 
understand you are the President of the National Association of 
Flood and Storm Management Agencies.
    Mr. Williams. Yes.
    Senator Carper. I mentioned earlier that one of our two 
statewide newspapers, the Delaware News Journal, featured more 
than a dozen articles over the course of a week that showed how 
rising sea levels along the Delaware coast are presenting 
communities and State agencies, families and businesses with 
some major challenges. Whatever people may think is the cause 
of this, it is a fact that in Delaware, and I know in other 
States, every year the water line is higher. It is not just an 
issue, as it turns out, for coastal States, but the Midwest and 
the Northeast of our country have faced record flooding in 
recent years as well.
    What steps do you believe the Corps should take to ensure 
that the people in the communities who depend on flood control 
projects are protected from flooding, that those projects are 
built to withstand stronger and maybe more frequent storms, and 
that the Corps is prepared to respond to disasters when they do 
occur?
    Mr. Williams. Thank you for the question, sir. It is a wide 
open one, I agree.
    First, I guess as an engineer, and I am an engineer, we 
understand that Mother Nature will always win out in the end. 
So we have to recognize that. How to build better, bigger, and 
stronger, that is what engineers do. And we try to plan for the 
future; we try not to plan and build for today's condition, but 
we try to look into the future. It is a very difficult crystal 
ball. And the Corps is very proactive in that in looking at 
ranges of numbers, not just a single number, when they design. 
They look at factors of safety, trying to predict what climate 
change will do, among a bunch of other things.
    But probably the best thing we can do as a nation, in 
addition to the engineering part of that, is community 
awareness, public awareness of where people live, where they 
will expect to have flooding, what the danger is and what they 
can do about it in the meantime. Even with the most robust 
program we can put together, there will still be areas that 
will be subject to flooding for quite some time. People that 
are aware of their surroundings and know what to do, as simple 
as an evacuation plan, or know where they might go for help and 
who they might call, is a very proactive step to get that way. 
The Corps certainly, among all the Federal agencies, is looking 
in that direction to improve the public awareness in addition 
to infrastructure. I think that is a very key part of that.
    Senator Carper. Good. Thank you. Thank you both, and again, 
thank you all for joining us today and for your input and your 
willingness to continue to respond to other questions that we 
might. Thanks so much.
    Thanks, Mr. Chairman.
    Senator Whitehouse. Thank you all. As I wrap up the 
hearing, I just had a couple of questions I wanted to ask. The 
first is for Mr. Sullivan. I was at the Coastal Resources 
Management Council gathering, their retreat the other day. 
Grover Fugate, who is, for the record, the Executive Director 
of our CRMC, was saying that the rate of change that is being 
experienced along the Rhode Island coast is accelerating and 
has accelerated to such a point that is actually running ahead 
of the capacity of the science and the observers to keep up. 
And in light of that, could you comment on the Northeast 
Coastal Region Coastal Ecosystem Restoration provision and its 
importance and value?
    Mr. Sullivan. The overriding idea is that, and the change 
we hope to see this WRDA bring about is to ensure that we begin 
to take a whole systems or a larger system approach to 
designing infrastructure and also using soft solutions to 
address some of these problems. Clearly, our globe is becoming 
more dynamic, and we are having more extreme storm events. The 
100-year flood, or the 2010 flood, in Rhode Island was a major 
economic hit to Rhode Island, with $100 million worth of 
damage. These kinds of events we expect will happen more 
frequently.
    And so what we hope to see in this Northeast Ecosystem 
Restoration proposal is the Corps begin to use the best 
available science that we have today, to understand how these 
larger systems work, and then to apply that knowledge to 
restoration programs in a way that ensures that we are doing 
the most cost effective thing and the most effective approach 
to addressing the threats at a regional scale.
    Senator Whitehouse. Are you worried, Mr. Sullivan, that 
given the backlog at the Corps and the glacial pace at which 
many Corps-authorized projects proceed, you could be in a 
situation in which by the time the Corps actually gets around 
to doing the project, the situation has changed enough that is 
now no longer up to date, and now you have to go back and start 
again?
    Mr. Sullivan. Yes.
    Senator Whitehouse. And the glacial pace of getting to 
that, they kind of never catch up because they are not nimble 
enough to get the work done in time to have the effect, while 
the conditions----
    Mr. Sullivan. I do think that is always a concern. And I 
think that some of the provisions in this bill are meant to get 
at that. We would welcome the opportunity to work with the 
Committee to suggest other ways for expediting some of these 
studies and project implementation. So that is absolutely a 
concern.
    But I think the idea that we need to move forward away from 
a project by project way of doing things, to understand how 
these systems work and to really bring the best science 
available to the table, and to implement projects that are 
going to address some of these major issues that we are now 
facing on our coastline is imperative.
    Senator Whitehouse. And Mr. Curtis, I have over and over 
again referred to your Society of Civil Engineers Report Card. 
I think the one that I referenced in my earlier statement was 
from a few years ago. What is your update, postcard, elevator 
speech of the summary of the status of our water and wastewater 
infrastructure in the country as of today?
    Mr. Curtis. Actually, it is the same report card that you 
probably looked at back in 2009. However, we have another 
update coming out in February 2013.
    Senator Whitehouse. Any previews of coming attractions for 
us?
    Mr. Curtis. I cannot give you the specific grades for the 
infrastructure rankings. I can say that not many of the 
infrastructure elements in this country have improved. There 
are a couple.
    Senator Whitehouse. My recollection is the Environmental 
Protection Agency has done a study that shows that we have $600 
billion worth of water and wastewater infrastructure work that 
needs to be done in order to reach that goal. We have $6 
billion of that into the Recovery Act. So we have 1 percent of 
what we needed to get done done and the Recovery Act, which 
leaves a huge gap still to work on.
    Mr. Curtis. Correct. And you are referring to the Failure 
To Act impact on water and wastewater that was issued just 
probably around a year ago. Yes. And the particulars associated 
with that report will be part of the 2013 infrastructure report 
card.
    Senator Whitehouse. I would invite the other witnesses to 
comment. One of my most intense frustrations around here is 
that we have these immense infrastructure needs. They are not 
going to get better. They are going to get worse. The old 
Yankee saying that a stitch in time saves nine implies that if 
you do it now, it will actually cost less than later. Cost of 
capital is probably not going to be lower than it is right now 
for a very long time for our country.
    And yet we have banged up against an unwillingness to 
invest in our infrastructure. To me, that is just, to use 
another phrase, penny-wise and pound-foolish. Because we are 
going to have to build this infrastructure sooner or later, we 
are going to have to repair it sooner or later. The work needs 
to be done, the waterworks need to be built, the repairs to the 
shorelines and so forth need to be done.
    And you end up, unless you built a bridge to nowhere, with 
a valuable asset that was worth spending the money on. So the 
wealth of the nation is actually enhanced by it, even though it 
is now a capital asset rather than cash in your budget. And yet 
we seem jammed up on it. So if there is any way that your 
associations can continue to push to get this done, we need the 
jobs now still. My State is still at a very high unemployment 
level. And we need the work to be done for the sake of the 
infrastructure.
    So if anybody has a final comment on that point, I would 
love to hear from you.
    Ms. Larson and Mr. Williams.
    Ms. Larson. I agree completely that we are not making the 
needed investments. If we look at any variety of projects 
across the water resources spectrum, whether it is our aging 
infrastructure, inland locks and dams, whether it is flood 
control structures, the Mississippi River and Tributaries 
project has a 34 to 1 return on investment ratio. It is 
critical, I think, that we find ways to invest, whether it is 
the alternative financing that is suggested through the course 
of the bill, but also for the Congress to re-engage in these 
investment decisions and to take back some of the control that 
it has ceded to the executive branch.
    But you are correct; we need to find ways to invest in this 
critical infrastructure, for jobs, for the economy, for the 
environment, and to maintain our position in the global 
economy.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. I am captivated by your 34 to 1 return 
on investment ratio, and would invite you and any of the other 
witnesses who have return on investment valuations for water, 
wastewater, public safety, shoreline protection infrastructure 
to please share that with my office. I would be delighted to 
add that to my armamentarium for argument on this issue.
    Mr. Williams.
    Mr. Williams. Just to follow up, sir, NAFSMA agrees with 
you entirely. And the numbers that I would like to get to you, 
I do not have them at hand, for an example, is Hurricane 
Katrina. The numbers I have heard about the investment that the 
Federal Government ended up putting into the area in disaster 
recovery, compared to what the cost would have been to prevent 
that, is astonishing. The problem, as you have noted, would be, 
how do you talk the American people into spending that much 
money on something that only has a chance of occurring, even 
though, as an engineer, I know it will occur. It is a matter of 
when.
    So I agree, and NAFSMA supports your statement, and we will 
do everything we can to further that and give you the 
information you need.
    Senator Whitehouse. Well, I appreciate it. I thank all the 
witnesses for their testimony and the organizations that you 
represent for your support and effort behind this bill. I am 
completely supportive of Chairman Boxer's effort to try to get 
this moving before we end this session. I think there is a good 
chance that that could happen. But we will all have to push 
together to make it happen, and I appreciate very much that you 
and others are here to get that done.
    In terms of the record, the record will remain open for a 
time to be determined by agreement between the majority and the 
minority. But the witnesses should expect to receive questions, 
and if you could turn them around relatively quickly, I would 
appreciate it.
    So subject to that, the hearing is adjourned.
    [Whereupon, at 12:18 p.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
